<html>
<title> - UNITED NATIONS PEACEKEEPING REFORM</title>
<body><pre>[Senate Hearing 109-322]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-322

                   UNITED NATIONS PEACEKEEPING REFORM

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS
                             AND TERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2005

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                     U.S. GOVERNMENT PRINTING OFFICE
26-641 PDF                WASHINGTON : 2006
___________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS
                             AND TERRORISM

                JOHN E. SUNUNU, New Hampshire, Chairman

GEORGE V. VOINOVICH, Ohio            BILL NELSON, Florida
GEORGE ALLEN, Virginia               JOSEPH R. BIDEN, Jr., Delaware
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Dibble, Philo L., Acting Assistant Secretary, Bureau of 
  International Organization Affairs, Department of State, 
  Washington, DC.................................................    15
    Prepared statement...........................................    17
    Response to question submitted by Senator Sununu.............    24
Lute, Jane Holl, Assistant Secretary General for Peacekeeping 
  Operations, United Nations, New York, NY.......................     6
Sununu, Hon. John E., U.S. Senator from New Hampshire............     1
Zeid Al-Hussein, His Royal Highness Prince Zeid Ra'ad, Permanent 
  Representative of the Hashemite Kingdom of Jordan, United 
  Nations, New York, NY..........................................     3

                                 (iii)

  

 
                   UNITED NATIONS PEACEKEEPING REFORM

                              ----------                              


                        WEDNESDAY, JULY 27, 2005

                           U.S. Senate,    
              Subcommittee on International
                          Operations and Terrorism,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:32 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John E. 
Sununu (chairman) presiding.
    Present: Senator Sununu.

OPENING STATEMENT OF HON. JOHN E. SUNUNU, U.S. SENATOR FROM NEW 
                           HAMPSHIRE

    Senator Sununu. This afternoon it is my pleasure as 
chairman of the International Operations and Terrorism 
Subcommittee to be hosting a combined briefing and hearing on 
U.N. peacekeeping reform. In doing so I wish to acknowledge, 
with thanks, the support of Chairman Lugar, who has been a 
great champion of comprehensive U.N. reform and who hosted a 
complementary hearing on U.N. reform, including peacekeeping 
reform, on July 21.
    This session is intended to follow up on that hearing and, 
in particular, we are pleased that we have three very 
distinguished officials that have agreed to brief or testify, 
respectively, before the subcommittee. I look forward to 
hearing their views on how we can make U.N. peacekeeping more 
efficient, more effective, and more faithful to the U.N.'s 
founding ideals and the challenges in the modern world.
    The expectations that are placed on U.N. peacekeepers have 
grown tremendously over the past 6 decades and the United 
Nations, as well its member states, have sometimes had a 
difficult time adapting to these new and challenging times. 
Perhaps the biggest changes have come in the last decade and a 
half since the end of the cold war. As the recently released 
report on the congressionally mandated task force on U.N. 
reform notes, between 1948 and 1990 the United Nations 
initiated some 18 peacekeeping operations, but between 1990 and 
today, the Security Council, with the support of the United 
States, has initiated more than 40 peacekeeping operations. 
That alone is an indication of the challenges that are faced by 
those that have supported peacekeeping operations through the 
United Nations.
    The task force report, which former House Speaker Newt 
Gingrich and Senate Majority Leader George Mitchell chaired, 
goes on to state: ``As of late March 2005, there were nearly 
70,000 international military and policy forces serving in 17 
different U.N. peacekeeping missions.''
    It is not just a matter of the number of operations; it is 
their complexity. In many cases we are asking peacekeepers to 
intervene in the wake of devastating civil wars or to take part 
and support the rebuilding of significant portions of society.
    Peacekeeping is the U.N. system's biggest single budget 
item. The approved budget for the period ending June 30, 2005, 
stood at nearly $4 billion and is likely to rise significantly 
for 2005 and 2006. The total assessment on U.N. members for 
peacekeeping is well in excess of the separate assessment for 
the U.N. regular budget.
    Not surprisingly, peacekeeping reform is not a new topic. 
One of the most important milestones in peacekeeping reform was 
the 2000 report of the panel on U.N. peace operations which 
Secretary General Kofi Annan commissioned. The so-called 
Brahimi Report offered several dozen recommendations to 
strengthen management of peacekeeping operations. It went a 
long way, as the Secretary General notes in his own U.N. reform 
report on March 2005, ``In Larger Freedom,'' working toward 
restoring member-state confidence in peacekeeping. 
Nevertheless, it did not address all of the problems, as 
persistent reports of sexual exploitation and abuse by U.N. 
peacekeeping personnel have made clear.
    In July 2004 Secretary General Annan asked the respected 
Permanent Representative of Jordan, His Royal Highness Prince 
Zeid, a former civilian peacekeeper himself, and the Ambassador 
of one of the major U.N. troop-contributing countries, to act 
as his adviser in assessing this scandal. The Secretary General 
subsequently asked Prince Zeid to prepare a comprehensive 
report for the U.N. Special Committee on Peacekeeping 
Operations. Issued March 2005, the report sets forth findings 
and recommendations under four broad categories: Rules and 
standards of conduct; the investigative process; 
organizational, managerial, and command responsibility; and 
finally, individual disciplinary, financial, and criminal 
accountability.
    The U.N. General Assembly endorsed the Zeid report last 
month and I am delighted that his Highness has been permitted 
to brief the subcommittee on his report and look forward to 
hearing his views on the key challenges facing the 
implementation of these recommendations.
    As the Gingrich-Mitchell report also noted, the Secretary 
General's ``In Larger Freedom'' report and the December 2004 
report of the High-Level Panel on Threats, Challenges, and 
Change make clear the misconduct of certain peacekeepers is 
only one of the impediments U.N. peacekeeping needs to 
overcome. The Gingrich and Mitchell report identify five 
additional areas.
    First on their list is doctrine, planning, and strategic 
guidance for mission deployment. They cite, as an example, the 
lack of guidance provided to U.N. peacekeepers in Haiti.
    Second, they list rapid deployment, by which they refer to 
enhancement of standby forces and prepositioned stocks able to 
respond quickly in the event of a crisis.
    Third, they note the absence of developed country 
involvement, to include the United States, in blue-helmeted 
operations.
    Fourth, information analysis and early warning. U.N. 
peacekeepers need real-time information if they are to be 
successful in the modern field.
    Fifth, Gingrich and Mitchell enumerate headquarters 
staffing and funding for peacekeeping operations.
    The High Level Panel also highlighted the issue of 
resources. One of the solutions it proposed was to create a 
small standing corps of senior police of 50 to 100 personnel to 
organize the startup of peace operations.
    I have invited U.N. Assistant Secretary General for 
Peacekeeping, Jane Holl Lute, who has a distinguished record 
and prior career with the U.S. Army, on the National Security 
Council, and in the nonprofit sector, to be our second briefer. 
Again, I express my appreciation to her superiors in New York 
for permitting her to address the subcommittee and I am eager 
to hear her views as one of the leaders of the U.N.'s 
peacekeeping operations and on the many challenges that lie 
ahead.
    Acting Assistant Secretary of State for International 
Organization Affairs, Philo Dibble, will appear on the second 
panel as a witness. He is a member of the senior foreign 
service and brings considerable expertise, in particular in the 
Middle East, which has seen a large share of U.N. peacekeeping 
operations over the year, and he will offer a useful U.S. 
Government perspective on our discussion today on the issue of 
sexual exploitation and abuse by U.N. peacekeepers, but also on 
a range of other peacekeeping issues. In addition, I would 
welcome comments on the specific provisions regarding 
peacekeeping and the pending U.N. reform legislation, including 
the Coleman-Lugar bill and the Hyde bill, which Senator Smith 
has introduced on the Senate side.
    Before I close, I would like to stress the crucial 
contributions that U.N. peacekeeping operations have made to 
U.S. national interests. The plain truth is that we cannot and 
do not want to be the world's policeman, but we have a great 
interest in preventing the collapse of states, which would then 
provide sanctuaries to our enemies. U.N. peacekeepers have been 
successful in the past in helping states to make the transition 
to peace and security. None of these operations are ever 
authorized without our concurrence as a member of the--as a 
permanent member of the U.N. Security Council, and my hope is 
that the reforms we are discussing today will help strengthen 
the U.N.'s role as a force multiplier and pave the way for a 
more secure world.
    Again, I want to thank our briefers and our witness today, 
and with that turn over the microphone, first, to His Royal 
Highness Prince Zeid. Thank you very much for being here. You 
are welcome to summarize or provide any written testimony you 
have and introduce anything you might like for the record. 
Thank you and welcome.

   STATEMENT OF HIS ROYAL HIGHNESS PRINCE ZEID RA'AD ZEID AL-
 HUSSEIN, PERMANENT REPRESENTATIVE OF THE HASHEMITE KINGDOM OF 
              JORDAN, UNITED NATIONS, NEW YORK, NY

    Mr. Zeid. Thank you, Mr. Chairman. Mr. Chairman, with your 
permission of course, I would like to express my gratitude to 
you for your words of welcome and for the kind remarks you 
addressed to me. It is, of course, a pleasure for us to be 
here, to be able to brief the subcommittee on the developments 
on this particular issue and the issue of sexual exploitation 
and abuse in U.N. peacekeeping operations because, quite 
simply, without the attention and the concern of the United 
States, there is only so much that we can accomplish in the 
context of the United Nations. So it is something that we very 
much would welcome.
    I think it is worthwhile starting off by making the rather 
obvious remark that where we deal with abuses or misconduct by 
U.N. personnel it is obvious that the United Nations, as an 
international organization, cannot exercise sovereign 
jurisdiction or has no sovereign power. Any abuse committed, or 
alleged to have been committed, can only, ultimately, be 
treated by the member states, and if abuses are not 
investigated in a judicial sense and then subsequent judicial 
proceedings are not forthcoming, this is not the fault of the 
United Nations, but it is, of course, the fault of the member 
states.
    By and large, our record in this area has not been a record 
worthy of admiration. We, in many cases, have fallen short of 
fulfilling our sense of responsibility, accountability to the 
victims of those personnel that we send to the field to work 
and serve with the United Nations. We need, urgently, to 
address this issue.
    The two broad areas where we felt--we felt are deficient 
and required treatment, are in the first instances the 
investigations that are carried out by the United Nations and, 
subsequently, then by the member states themselves; and in the 
second area, the treatment of a category of personnel, that is 
civilian personnel, who may not fall under the jurisdiction of 
any country that is capable of exercising that jurisdiction, 
and I will get to those two points shortly.
    In the area of investigations, it was quite clear that the 
United Nations was, and still is, responsible for examining the 
initial evidence as a means of discerning whether there have 
been breaches, breaches of U.N. rules and regulations. And it 
was clear that in handing over the evidence that was collected 
in the initial stages to member states there was a problem. The 
problem resided in two areas.
    One is that the boards of inquiry that, in the past were 
put together to examine evidence, were not staffed by 
professionals. These were people who were not quite aware of 
how rules of procedure and evidence would work in a national 
context and were not people who knew what was admissible 
evidence in the national context from what evidence was not 
admissible. So it was clear we needed to make adjustments here.
    The second area was in the field of forensics. We realized 
that the United Nations, for many years, did not employ modern 
methods of identifying perpetrators of various crimes, amongst 
which are, of course, the sexual offenses, and here we needed 
to change the manner by which things were being done.
    Now, the report was put together at the beginning of the 
year and when the discussions first began on the report, which 
we entitled a comprehensive strategy for the treatment of this 
particular issue, the General Assembly took the decision or 
reaffirmed its decision that the Office of Internal Oversight 
Service would be primarily responsible for the conduct of 
investigations.
    It was clear to us that we, then, had to triangulate a 
relationship between the Office of Internal Oversight, which 
hitherto had no real presence in the field--no real fixed 
presence--with the Department of Peacekeeping Operations, 
which, of course, does have a presence in the field, and then 
also tie that in with the responsibilities of member states in 
following up what initial investigations were conducted by the 
United Nations.
    It was also very apparent to us that where military 
personnel are concerned, any investigation had to involve the 
member states. I think most militaries across the globe are 
averse to having other entities investigate their personnel in 
an exclusive manner and what we had to strive for was some sort 
of joint investigation, whereby the United Nations, and the 
member state concerned, would look at the material and then 
decide whether there was material sufficient for subsequent 
legal or judicial steps to be taken.
    Of course I will allow Jane to speak on this because I 
think we have achieved a considerable amount in this area, and 
discussions between the Department of Peacekeeping Operations 
and the Office of Internal Oversight Services are continuing, 
and at the same time the memorandum of understanding, which 
governs the relationship between the troop-contributing 
countries and the United Nations, is also now being amended and 
will subsequently, I think next week, be made available to all 
member states for comments.
    So, on the military side, I think we see some very good 
developments. On the civilian side, this is much more of a 
vexing problem, as I alluded to earlier, simply because you 
could have a situation where there is a civilian staff member 
working for the United Nations who is alleged to have committed 
a serious crime, let us say, in the case of sexual abuse, let 
us say a rape. Of course, what normally would happen is that 
the host country, the country where the operation is taking 
place, would exercise jurisdiction. Well, it goes without 
saying that in many of these countries there is no judiciary 
worth speaking of.
    So what then can you do? Well then, you can turn to the 
country whose national is being accused and you see whether 
that country can exercise jurisdiction over this particular 
criminal act alleged to have been committed. And if that 
country, itself, cannot exercise jurisdiction, because not all 
countries can exercise jurisdiction extraterritorially, then 
you have a problem, because what you have is a U.N. official 
who, in effect, has impunity. No one is able to prosecute that 
individual.
    These are very complex legal issues and for that reason we 
suggested the setting up of a group of experts--a legal group 
of experts--and that now is being done. The experts themselves 
will be contacted any day now. We hope they will meet quite 
soon. We are looking at financing for that group and in due 
course the General Assembly will, of course, have time to 
review what proposals are being presented by this expert group 
and then take a decision.
    So, in overall terms, I am quite confident that we are on 
the right track. This is a very difficult problem. We will 
encounter more allegations in the field as we improve the 
mechanisms for eliciting complaints. That is without any doubt. 
And after 60 years of relative neglect--and this is not just 
speaking about sexual exploitation and abuse, but the wide 
range of misconduct--and I have to be clear here that we are 
speaking about misconduct being committed by personnel from 
every corner of the globe. There is no single country or groups 
of countries who are particularly culpable where these issues 
are concerned.
    Returning to my original point, it is incumbent upon us, 
the member states, to ultimately ensure that we see that 
justice is done and also not to interfere, in the manner by 
which the United Nations also goes about doing its work, in a 
way that will complicate the justice that ought to be done to 
the victims of this sort of abuse.
    I thank you for giving me this opportunity, Mr. Chairman, 
and I would be willing to answer any questions that you may 
have. Thank you.
    Senator Sununu. Thank you very much.
    Ms. Lute.

 STATEMENT OF JANE HOLL LUTE, ASSISTANT SECRETARY GENERAL FOR 
     PEACEKEEPING OPERATIONS, UNITED NATIONS, NEW YORK, NY

    Ms. Lute. Mr. Chairman, thank you very much, on behalf of 
the Secretary General and the Under Secretary for Peacekeeping, 
for giving us the opportunity to meet with you. We value very 
much an open dialog on the full scope and range of peacekeeping 
issues as we reach what we believe to be a major pivot point in 
understanding and applying U.N. peacekeeping in the world 
today.
    With your permission, Mr. Chairman, I would also like to 
express the very deep gratitude of the Department of 
Peacekeeping Operations to Prince Zeid for the work that he did 
on behalf of the Secretary General and his personal commitment 
to following through on an agenda that is necessary and 
complex, but very essential for us as we move toward a more 
effective and powerful instrument on behalf of the member 
states.
    I would like to elaborate, Mr. Chairman, if you agree, on 
some of the measures that we have undertaken in the Department 
to respond to the findings of Prince Zeid in his report and to 
put these in the context of how the Department approaches its 
work as we look at some new concepts, such as the concept of 
peacebuilding and applying all of the energies of the 
international community to address conflict-ridden 
circumstances.
    First, let me give you, Mr. Chairman, a brief picture of 
where we are. In the past 18 months there have been a total of 
186 substantiated allegations of sexual exploitation and abuse. 
This has resulted in 7 civilians being dismissed, 2 
reprimanded, and 10 referred for additional disciplinary 
action. Two police have been repatriated and two additional 
cases of policemen are under review; 78 military, including 6 
commanders, have been repatriated. Nepal, South Africa, 
Morocco, Pakistan, and others have taken decisive action 
against their contingent members who have been validated to 
have committed acts of sexual exploitation and abuse, and we, 
in the Department of Peacekeeping Operations, welcome this 
conviction by the member states of their commitment to 
upholding the highest standards of performance.
    We have undertaken a number of initiatives, Mr. Chairman, 
in the area of prevention, in the area of enforcement, and in 
the area of remediation to address this. We want to be able to 
assure the member states of the United Nations that they can 
move from a position of, perhaps, constant surprise at what has 
happened in the field to constant vigilance, that we have a 
handle on this problem and we will maintain that vigilance to 
deal with this problem in its fullest sense.
    In the first instance, in the area of prevention, we are 
promulgating common standards that will apply to all civilians 
and military serving in peacekeeping missions. We have had 
separate sets of standards before. We have moved to, and the 
General Assembly has approved, the applicability of a common 
set of standards applicable to all peacekeeping personnel.
    We have redoubled our efforts in education and training 
through the standard training modules that member states and 
troop contributors and civilians receive prior to their 
deployment to a peacekeeping mission and refreshed--what will 
be refreshed on an annual basis while they are in missions. 
This education and training addresses the specific issues of 
sexual exploitation and abuse, but also addresses broader 
cultural issues and broader gender awareness issues, the 
special vulnerabilities of children in conflict, et cetera, to 
be a total framed presentation of the issues in an education 
and training format.
    We have a focus on individual and leadership 
responsibility. So while we have promulgated these standards, 
we are emphasizing the responsibility that individuals have in 
upholding these standards and we are also emphasizing the 
special responsibilities expected of leaders and managers as 
well. We will promulgate an extensive set of policy directives 
on minimum measures that missions will take regarding this 
issue. We have focused on senior leadership with training, with 
briefings, and with follow-on--follow-on programs to ensure 
that they understand their responsibilities in this regard.
    We have asked the Office of Internal Oversight for a 
comprehensive audit of discipline in all of our peacekeeping 
missions in order to understand fully the context within which 
these acts can occur. They have concluded their audit. We have 
had an ongoing dialog with them about the findings and about 
the remedial measures we will take to address the issues that 
they have raised.
    We have a communications strategy, Mr. Chairman. One that 
explains more clearly to the populations we serve the role of 
peacekeepers, but also one that speaks to us, ourselves, to 
remind us why we serve, to remind us of the duty of care that 
we owe the populations that we serve, and to remind us of the 
special privilege that it is to serve as a U.N. peacekeeper.
    There are also other measures as well, Mr. Chairman, that 
missions are taking on an individual basis, for example, 
requiring soldiers in contingents to wear uniforms at all times 
within the mission area and other measures as well.
    With the TCCs, the troop-contributing countries, as Prince 
Zeid has outlined, we have been in dialog with them on the 
training and education emphasis and also on refining our 
memoranda of understanding with them regarding what can be 
expected with respect to their units deploying to peacekeepers 
in the field. We have also been in active dialog with them in 
following up when soldiers have been repatriated for sexual 
exploitation and abuse activity to know what has happened to 
these soldiers, to be able to use that for the deterrent value 
that it has, and also to address this issue of zero tolerance 
and to give meaning to the phrase ``zero tolerance.'' It is a 
phrase that for many has lost its meaning, but we are 
invigorating that phrase with a very concrete--with very 
concrete dimensions. ``Zero tolerance'' in effect, Mr. 
Chairman, to us means zero complacency, zero impunity. We will 
not be complacent in the face of clearly validated allegations 
of sexual exploitation and abuse and we will not let 
individuals commit these kinds of acts with impunity. I am 
pleased to say, Mr. Chairman, that we are getting the 
cooperation of the troop-contributing countries in following up 
when this has occurred.
    On the enforcement side, as Prince Zeid mentioned, we are 
doing a lot of work in improving and strengthening our 
investigative capacity. This responsibility has primarily been 
given to the Office of Internal Oversight, but it is a large 
job. They do not have enough resources to do all that needs 
doing. So we are working with them to ensure that crimes or 
acts of this type do not slip away or fall under the weight of 
other work and other priorities.
    We are compiling a database to represent a comprehensive 
understanding of individuals that have been again demonstrated 
to have committed these acts, so that we can ensure that they 
are not rehired in some other part of the U.N. system. We are 
creating, in eight of our missions, personal conduct and 
discipline units to assist the mission leadership in monitoring 
the good order and discipline in the mission area and to take 
action in the area of advocacy, education, training, and to 
receive complaints, to help facilitate the leadership's control 
in the mission area.
    We are working with the member states to strengthen 
criminal accountability, as Prince Zeid mentioned, Mr. 
Chairman. This is particularly in the area of extraterritorial 
jurisdiction for civilians who have committed crimes in host 
nations where the judicial system cannot be relied on to 
prosecute that crime itself.
    We are increasing our patrols. We have off-limit areas. We 
have curfews. We have a number of other mission-specific 
measures that they can take.
    In the area of remediation, the area of victims' 
assistance, Prince Zeid mentioned this as an important concern 
of ours. We have had a task force looking at all aspects of 
victims' assistance to ensure that the organization meets its 
responsibilities with respect to victims without losing sight 
of the individual culpability when and as it is established.
    We want to be a catalyst for best practice in this area. At 
the moment our missions are partnering with our UNICEF and 
other colleagues with NGO partners on the ground to bring first 
and essential services. It is not nearly enough, Mr. Chairman, 
for what victims need, but it is a start.
    Why is this important? Again it is important because U.N. 
peacekeeping needs to be a much more effective, much more 
powerful tool in the hands of the member states as we look at 
the very complex agenda, which you rightly pointed out in your 
opening remarks.
    Peacebuilding is one of the major initiatives--a 
peacebuilding commission, I should say, is a major initiative 
that is under contemplation for adoption by the member states. 
What the peacebuilding commission will do, what a peacebuilding 
orientation will do, is give us all a new way of looking at the 
post-conflict environment. Peacebuilding is essentially an 
agenda of definitive recovery from conflict.
    It differs from peacekeeping in important ways. It differs 
from development assistance or from humanitarian assistance in 
important ways. Humanitarianism can best be thought of, 
perhaps, as emergency well-being, bringing those essential 
services of food, water, shelter, protection to people under 
stress. Development is probably best thought of as an agenda 
for sustainable self-governance, to build those capacities and 
those institutions in states so that people can govern 
themselves in relative peace.
    Peacekeeping is best thought of as creating an environment 
of transitional security. It is a temporary phenomenon in any 
individual place. But as we have seen, it is a permanent need 
of the international community, and it is a permanent capacity 
we, in the Department of Peacekeeping Operations, intend to get 
very good and expert at, more so than we have in the past.
    All of these pieces comprise the agenda of peacebuilding, 
which is a 10- to 25-year agenda in the aftermath of a conflict 
so that people can definitively recover from that conflict. We 
need to weave all of these strands together.
    As you rightly point out, Mr. Chairman, for peacekeeping 
this means, specifically, better ability to write doctrine, to 
do planning, to provide strategic guidance. In the area of 
rapid deployment, we do believe we need a standing reserve 
capacity in those circumstances when the rapid introduction of 
a decisive military force can turn the difference between 
spoilers prevailing or not. We do believe we need a standing 
police capacity to bring that expertise and technical 
assistance to bear in a public order environment where it is so 
necessary and important. We do believe that we need an 
intelligence capacity to give peacekeepers on the ground the 
near-real-time battle space awareness that any commander on the 
ground would want to have. And we do believe, Mr. Chairman, 
that we have in place the vision, the plan, the organization, 
the people, and the mindset of the leadership that would 
validate the investment of resources to strengthen peacekeeping 
in these ways.
    I thank you again, Mr. Chairman, for the opportunity to 
appear before you and I am prepared to answer any questions you 
may have. Thank you.
    Senator Sununu. Thank you very much.
    Prince Zeid, of the recommendations that you made to the 
Secretary General, which do you think will be the most 
difficult to implement and take the greatest amount of time or 
resources to successfully implement?
    Mr. Zeid. Thank you, Mr. Chairman, for that question. It is 
difficult to single out any one particular issue. I think 
ultimately, though, if there was one that does stand slightly 
above the rest in terms of the need to ensure that justice is 
done--and again particularly for the victims concerned--that in 
my opinion would be need for professional investigation. I 
think that is where we would need resources, given the number 
of allegations that you have in the field and the need to 
establish early on whether there are grounds for culpability.
    We need to have resources. We need to have access to 
forensics capabilities. You need to have the right personnel. 
You need to be on the scene as quickly as is possible. You need 
to have arrangements with the host country and with the country 
supplying troops or personnel. So, ultimately, I think that is, 
if you were to single out one issue, that would probably be it.
    But that is not to say in any way that we can diminish the 
other recommendations that we also need to work on. It is, as I 
said, a problem born out of many years of neglect by the member 
states, the Security Council, the Secretariat to some extent, 
and it is high time that we deal with this. That is not to say 
that we can reverse 60 years worth of culture overnight, but I 
am quite confident that we will be able to do it in 1 to 2 
years, in other words implement the entire battery of 
recommendations in the report.
    Senator Sununu. Did you estimate the total amount of 
resources necessary to achieve those improvements in the 
investigative process and forensics and did you identify a 
source of funding for those improvements?
    Mr. Zeid. Mr. Chairman, to the extent that we only had 
really a few weeks to put the report together, we could not 
attack this problem comprehensively. We did informally, let us 
say, we contacted informally a number of laboratories that 
conduct forensic work to just arrive at some sort of figure for 
how expensive all of this would be.
    To our surprise, it was not as expensive as we initially 
thought. It is rather astonishing that we have not thought of 
all of this before. I think seldom has there been, for 
instance, fingerprints--fingerprinting--conducted by the United 
Nations or fiber analysis; it could be analysis of all sorts. 
This is something, obviously, that has to change.
    I do not know whether Jane Holl Lute would have a more 
precise figure on this. I know that OIOS is looking at it as we 
speak now and I am sure that in due course we will be able to 
arrive at some sort of figure concerning this. Of course, it is 
contingent on the number of allegations and number of cases 
that we also must pursue in the field.
    Thank you.
    Senator Sununu. You also mentioned the establishment of a 
group of experts to help with some of the evaluation of the 
legal issues associated with civilian personnel, and that that 
is under way right now. What is the source of funding and 
financing for that group?
    Mr. Zeid. That is another good question, Mr. Chairman. It 
does not surprise me that it comes from an engineer as well.
    The sources that we are looking at at the moment are extra-
budgetary. We are approaching, or the United Nations is 
approaching, a number of member states, in particular one of 
the Scandinavian countries, and we are looking at private 
sources as well to fund this arrangement.
    Senator Sununu. Ms. Lute, you mentioned--touched on the 
issue of command and strategic guidance in the field. Could you 
elaborate on that just a little bit more? To what extent has 
breakdown in command, or weak command structures within the 
peacekeeping missions, been identified as a contributor to some 
of the problems that we are seeing and what recommendations 
have been made for strengthening that guidance and the chain of 
command among the missions?
    Ms. Lute. Thank you, Mr. Chairman. It speaks actually to 
the heart of the matter. This kind of behavior does not occur 
chronically, or on a widespread basis, in an environment of 
tight command and control. This is why we asked OIOS, the 
Office of Investigative Oversight, to look into the state of 
discipline in our missions.
    We have drawn the conclusions that our leadership 
environment needs strengthening both on the civilian and the 
military side, that commanders and senior leaders and managers 
in the mission are responsible for the state of discipline and 
for the actions that do occur. Where we have found widespread 
activity, we can point directly to weak commanders. But as 
Prince Zeid said, Mr. Chairman, it is not the case that this is 
attributable to any particular nationality or contingent. It is 
attributable to a weak command and control environment, bad 
habits, bad supervision, bad behavior--again, not exclusive to 
the military at all. We can observe this on the civilian side.
    We have also heard offerings of mitigating circumstances 
which might forgive such behavior: These are difficult and 
dangerous environments; staff members are under enormous 
stress; they are far away from home; they are vulnerable to 
solicitations for prostitution and it is a very short step from 
those kinds of behaviors to other more serious acts. Frankly, 
Mr. Chairman, none of those excuses wash. None of them are 
things we understand. None of them are things that condone this 
kind of behavior.
    So we have begun to emphasize to leaders and supervisors 
and commanders on the ground that we will hold them accountable 
to their command responsibilities in this dimension. We have 
also had a very productive dialog with troop-contributing 
countries at a military level as well as a civilian level, in 
New York and in capitals, frankly, Mr. Chairman, at every 
opportunity, to solicit their support and commitment to 
ensuring that this command standard is maintained.
    Senator Sununu. Has any disciplinary action been taken with 
respect to any of the field commanders under whom these 
problems occurred?
    Ms. Lute. Yes, Mr. Chairman. I mentioned some----
    Senator Sununu. And are your powers sufficient in that 
regard?
    Ms. Lute. We have no power with respect to that, Mr. 
Chairman. The troop-contributing countries, as you would 
expect, retain the disciplinary authority over their troops and 
their commanders.
    We have seen disciplinary action taken. As I mentioned 
earlier, six commanders have been subject to disciplinary 
action in their home countries. Pakistan for example, among 
others, has disciplined commanders in addition to individuals 
who have been held responsible for these acts.
    Senator Sununu. You mentioned in addition to those, I think 
two police that have been repatriated, a number of others that 
have been disciplined. In the cases where there is a 
repatriation, has it uniformly been the case that there has 
been what you would view as effective and reasonable 
followthrough with regard to prosecution and discipline?
    Ms. Lute. Not in all cases, Mr. Chairman. There has been no 
single standard. As you might imagine, each nationality 
reserves the right to act under its particular set of laws in 
the jurisdictional context within which their military members 
serve in our peacekeeping missions. So there is no uniformity.
    What we have been asking the member states--and Prince 
Zeid's particular efforts have been extremely helpful to us in 
this regard--is that they take action once an individual has 
been repatriated on proven grounds for these actions, for these 
acts, and that they communicate to us the action that has been 
taken, which is appropriate within their national guidelines.
    Senator Sununu. Is there anything that restricts or 
inhibits either of you from providing clear and effective 
feedback to the member states regarding whether or not their 
disciplinary action is appropriate in the eyes of the United 
Nations?
    Ms. Lute. That is a good question, Mr. Chairman. We would 
not presume to appoint ourselves the court of appeals in 
reviewing the disciplinary action that has been taken by the 
member states. But we do--we have and we do and we will 
continue to ask the member states what disciplinary action has 
been taken, how is this consistent with your laws governing the 
kinds of transgressions that we are dealing with here, and we 
accept it as appropriate under the circumstances.
    Senator Sununu. Is that an effective process? Is that 
effective for you in your role and, while I understand you 
cannot speak for the Secretary General, is there any process 
under way to try to strengthen the way that this kind of 
feedback is provided to member states insofar as whether or not 
the disciplinary action is appropriate and is helping to make 
the peacekeeping operations work more effectively, your 
Highness?
    Mr. Zeid. Thank you, Mr. Chairman. What is absolutely clear 
is that for certain cases and for technical reasons, countries 
that have, on occasion in the past, been willing to follow 
through with prosecutions have been unable to do so because the 
evidence did not quite fit what is admissible under the 
national legal system.
    But there is something else and I think you allude to it in 
your question, and that is that for many years many of us, the 
governments, have also for political reasons or for other 
reasons not followed through. One of the problems that we do 
encounter with any international organization or any 
international conference, for that matter, is that we are all 
too willing to point a finger at others and not willing to 
confess to our own shortcomings.
    The United Nations is a reflection of all the defects that 
exist within our own national systems. It is almost the 
aggregate of that. So we have to be careful before requesting 
of the United Nations to maintain a high standard of conduct 
that we ourselves are willing to do likewise.
    Now, of course, we need to change this culture. When I 
spoke before the Security Council about a month and a half ago, 
I made it very clear that I had no credibility going before the 
Council unless I was clear about what violations have been 
committed by Jordanian troops in peacekeeping operations, that 
their conduct on occasions has been appalling, that we are very 
proud of their overall conduct, but we are now alive to the 
fact that we are not all saints, there are some sinners between 
us, and we must deal with this.
    I think if we can inspire a culture, whereby all of us, all 
the member states, are willing to do likewise, are willing to 
say this is not something that we should be ashamed of--of 
course we should be ashamed of the conduct, but if we were not 
to speak up this is even, perhaps, more shameful. So we should 
not be ashamed in speaking out on this, and make reference to 
our own actions and inactions.
    Hopefully, in time we will be able to see a change in this 
culture. Indeed, in the case of, at least, one country that 
initially took a position whereby it stated that the conduct of 
its troops was impeccable, under subsequent scrutiny then had 
to revise its position and, to its credit, sort of confessed or 
spoke out and said, no, we do have a problem and we are going 
to take action on it, and they subsequently did so. So, it is 
an issue that requires sort of some careful handling, I 
believe.
    Thank you, Mr. Chairman.
    Senator Sununu. Ms. Lute, you mentioned the zero tolerance 
policy. You may have answered this in some of the numbers you 
provided, but how many peacekeepers have violated that policy 
this year and what types of action have been taken for those 
that have violated the zero-tolerance policy?
    Ms. Lute. Thank you, Mr. Chairman. These were the 
statistics I reviewed earlier, where we had 186----
    Senator Sununu. 186.
    Ms. Lute. Yes.
    Senator Sununu. Basically that comprises all of the 
violations of the policy, or allegations?
    Ms. Lute. Mr. Chairman, these are the serious allegations 
that have warranted further action. Of these were the 7 
civilians I mentioned being dismissed, 2 reprimanded, 10 
referred for additional action, 2 police repatriated, 2 cases 
under review, 78 military repatriated, including in that case, 
Mr. Chairman, 6 commanders, et cetera.
    Senator Sununu. Which raises the question of tracking these 
various allegations and violations of the policy. Is there a 
database to identify and track violation of these policies and 
who is in charge of the database and the information-gathering 
and to what extent is it available to member states?
    Ms. Lute. Thank you very much, Mr. Chairman. It is an 
important tool in our arsenal for addressing this problem, and 
to date--to this point, I should say, our data collection has 
been rather ad hoc and unsystematic. We have done it in an off-
line way, mission by mission and category of personnel by 
category of personnel, military, experts on mission, civilian 
police, civilian personnel serving.
    In the Department headquarters, we have similarly taken an 
off-line--that is to say nonfully automated--approach to data 
collection. I chair a task force, Mr. Chairman, in the 
Department of Peacekeeping Operations on dealing with the 
problem of sexual exploitation and abuse. That has been a major 
initiative of the task force. We have taken out of beta testing 
a comprehensive database that will allow us to have a much more 
sophisticated and streamlined system.
    Senator Sununu. When do you expect that to be operational?
    Ms. Lute. This fall, Mr. Chairman.
    Just to follow through on the point, if I can supplement 
what Prince Zeid said on following up with member states, we 
used to follow up at the 90-day mark, the 3-month mark: What 
has happened to this individual that has been repatriated? We 
now follow up beginning at the 30-day mark and follow up 
monthly thereafter with regularized intervals for elevating the 
level at which we engage the member states for a response.
    Senator Sununu. What is the current ratio of peacekeepers 
in the field to headquarters staff in New York, and based on 
your experience in the U.S. Army is that ratio what it should 
be?
    Ms. Lute. I started out as a music major, Mr. Chairman. 
Math is not my long suit. We will have over 90,000 people in 
the field and in the Department of Peacekeeping Operations we 
have a staff of 604. There are about 190 other staff members 
spread throughout various departments in New York, in the 
Department of Management, in the area of procurement, in the 
comptroller's office, in human resource management, in legal 
services. But the Department of Peacekeeping has about 600 for 
90,000 in the field. These ratios are unlike anything I have 
ever seen in my military career. No national government runs a 
force deployed, forward deployed, with that kind of 
headquarters ratio.
    Senator Sununu. Can you speak a little bit about the 
readiness level of the troops that are being deployed now, 
particularly with regard to the technology and the equipment 
they have access to?
    Ms. Lute. Thank you very much for that question, Mr. 
Chairman, because we have--we do an extraordinary amount with 
what are relatively smally sized operations in the field. 
Troop-contributing countries now conduct, on a regular basis, 
with us predeployment visits. We go to those countries to 
inspect the units that will be deployed on peacekeeping 
missions to evaluate their state of readiness of the soldiers, 
of the vehicles, of the other equipment that is brought under 
the heading of COE or contingent-owned equipment that they 
bring with them into the mission area. These are fairly 
recognizable standard infantry battalion kinds of equipment, 
medical units which would be recognizable to any professional 
military at a level one or level two standard.
    The equipment and the readiness and the performance of the 
units is quite extraordinary in many if not all cases. So the 
readiness of the troops has been enhanced over the course of 
time, because some of our regular troop-contributing countries 
now have developed what might be called a battle rhythm for 
deploying to peacekeeping missions.
    They also, Mr. Chairman, now conduct on a much more 
regularized basis reconnaissance visits to the areas in which 
they will serve in peacekeeping missions. This is brand new, 
believe it or not. Again, in my own military experience it is 
extraordinary that a military contingent would ever deploy 
without having performed, to the greatest extent possible, the 
reconnaissance in the area of responsibility it will be given. 
It is a relatively new innovation for us in peacekeeping, but 
one that we are working very closely with the TCCs.
    So, through dint of their own experience, through dint of 
the elevation of the performance of professional soldiers 
across the board, and through measures like predeployment 
visits, predeployment training, reci or reconnaissance visits 
to the areas of responsibility they will be given, we are quite 
pleased with the level of performance.
    Senator Sununu. What about access to real-time information 
and early warning? This is one of the areas addressed by 
Gingrich and Mitchell. What kinds of goals, what kind of 
standards exist today, but what kind of goals and objectives do 
you have for addressing that recommendation and improving 
access to information and real-time data in the field?
    Ms. Lute. Thank you for that question, Mr. Chairman. It is 
operationally very relevant for us because many of our missions 
are in a highly charged environment where the operational tempo 
is intense. Eastern Congo is an example. We do not have a 
tactical intelligence capacity at all, except for what our 
military observers are able to glean from their observations, 
from what normal reconnaissance patrols conducted by the 
various units who are forward deployed might reveal. We have no 
electronic measures. We have no imagery measures. We have no 
human intelligence measures other than the engagement of the 
contingent with the local population to establish for 
themselves the IPB or the intelligence preparation of the 
battlefield.
    Ours are not battlefields, Mr. Chairman, but they are 
operating spaces that are increasingly complex and dangerous. 
So this is a capacity that we believe we sorely need.
    Senator Sununu. I want to thank you both for your testimony 
and your time. You are very gracious. We will almost certainly 
have a couple of additional questions that we might follow up 
with in writing, and if you are able to provide additional 
information to the subcommittee as an expansion on this 
briefing I would appreciate it. Thank you both very much.
    At this time I would like to call forward our witness, 
Philo Dibble, the Acting Assistant Secretary for International 
Organization Affairs at the State Department.
    [Pause.]
    Senator Sununu. Welcome, Mr. Dibble. Thank you very much 
for being here. We are pleased that you could make the time and 
I would ask you to go right ahead with your testimony.

   STATEMENT OF PHILO L. DIBBLE, ACTING ASSISTANT SECRETARY, 
  BUREAU OF INTERNATIONAL ORGANIZATION AFFAIRS, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Dibble. Mr. Chairman, thank you for the opportunity to 
testify before this committee on this very important issue. 
With your permission, I will offer a brief oral summary of my 
testimony, but I ask that the full text be included in the 
record.
    Senator Sununu. Without objection.
    Mr. Dibble. Mr. Chairman, in many ways peacekeeping is the 
core of the mission of the United Nations. Indeed, Article 1 of 
the U.N. Charter identifies the maintenance of international 
peace and security as one of the organization's fundamental 
purposes. During the past 15 years the Security Council has 
mandated an increasing number of peacekeeping missions to help 
deal with threats to international peace and security. And, as 
those missions have increased in number, they have also 
increased in complexity, as the previous panel has made clear.
    More and more peacekeeping operations have been called upon 
to deal with conflicts within states rather than between 
states, and to operate in circumstances where political, 
economic, social, and humanitarian concerns play roles, at 
least as important as short-term stability, in determining the 
success of a mission.
    There are at present, 16 active U.N. peacekeeping missions 
worldwide, with nearly 85,000 troops and 9,500 police 
authorized. Since September 2003 alone, the United States has 
supported new U.N. peacekeeping missions with current troop 
levels of over 33,000 for Liberia, Burundi, Haiti, Cote 
d'Ivoire, and Sudan.
    We ask a great deal of U.N. peacekeepers. In few cases are 
they mere monitors of an agreed cease-fire line. There are 
often calls for them to be aggressive against rebels and 
against irregular units, and, unfortunately, U.N. peacekeepers 
themselves are increasingly the targets of hostile fire. Over 
1,900 personnel in U.N. peacekeeping operations have been 
killed in the course of their duty since 1948.
    Clearly, however, serious problems have arisen and emerged 
as peacekeeping has expanded and become more complicated. In 
particular, we have received substantiated reports of sexual 
abuse and exploitation by peacekeeping troops and others 
associated with the missions. Such contemptible acts are 
intolerable in themselves. They must be prevented and, where 
prevention fails, those who commit them must be punished.
    Sexual abuse by peacekeepers is also unacceptable because 
of the damage it does to the reputation of the United Nations, 
to that of the troop contributors, and to the basic objectives 
of peacekeeping missions, even if the vast majority of 
participants in those missions have conducted themselves 
honorably.
    We continue to press the United Nations to enforce the 
policy of zero tolerance of sexual abuse and exploitation by 
U.N. peacekeeping and civilian staff. We have insisted that 
military contingent commanders be held accountable, along with 
their subordinates, and that troop-contributing countries take 
action against their peacekeepers who perpetrate acts of sexual 
exploitation and abuse.
    To its credit, the United Nations has responded with 
commendable energy. We commend, specifically, the work of the 
Secretary General's special adviser, Prince Zeid Ra'ad Al-
Hussein, Permanent Representative of Jordan, in crafting a 
comprehensive strategy and his recommendations to eliminate 
future sexual exploitation and abuse in U.N. peacekeeping 
operations.
    The General Assembly recently adopted resolutions endorsing 
many of those recommendations, to strengthen enforcement of a 
uniform U.N. Code of Conduct for peacekeepers, improve the 
capacity of the United Nations to investigate allegations of 
sexual exploitation and abuse, broaden assistance to victims, 
and enhance predeployment training for U.N. peacekeepers.
    We welcome the creation of personal conduct units within 
the U.N. missions in Burundi, Cote d'Ivoire, the Democratic 
Republic of the Congo, Sudan, and Haiti to address allegations 
and to assist victims. We have encouraged the United Nations to 
establish similar units in each of its peacekeeping missions.
    We will continue to address the issue forcefully with troop 
contributors and advocate at the United Nations for systemwide 
reforms. Since we became aware of the problems, U.S. officials, 
including the Secretary of State, have raised our concerns with 
the Secretary General within the Security Council, and with 
troop-contributing countries. There is, I am happy to say, 
broad support for a strong response.
    Looking again at the broader issues of peacekeeping, the 
State Department takes its responsibilities with respect to 
U.N. peacekeeping and to the Congress and to the taxpayers very 
seriously. We examine and critique the recommendations of the 
Secretary General on peacekeeping. We also report to, and 
consult with, interested congressional committees, both 
formally and informally, on a regular basis and in detail on 
significant developments relating to peacekeeping. We keep U.N. 
peacekeeping operations under constant review, in particular to 
ensure an effective exit strategy.
    I would note that circumstances sometimes require forces to 
be built up in order to achieve that strategy. Once mission 
goals are achieved, we seek to have missions reduced or closed. 
In May the Security Council approved the termination of the 
peacekeeping mission in East Timor, and in June approved 
closure of the mission in Sierra Leone next December. At the 
urging of the United States, the Council requested that the 
Secretary General review the level of staffing in the U.N. 
mission in Western Sahara, where a political stalemate has 
prevented progress toward a final status resolution. After 
elections scheduled for August in Burundi, it will be time to 
discuss a drawdown there.
    We also support the creation of a peacebuilding commission, 
as the previous panel had mentioned, as an advisory body to the 
Security Council, to improve policy coordination within the 
U.N. system and the donor community, and to respond to the 
increasingly complex, difficult nature of peacekeeping as such.
    We are convinced that the United Nations can conduct 
peacekeeping more efficiently and we are pursuing the details 
of the structure, manning, and equipping of peacekeeping units 
in the context of discussions as debated in the General 
Assembly, which decides on budgetary matters.
    Mr. Chairman, with that I thank you and am happy to take 
your questions.
    [The prepared statement of Mr. Dibble follows:]

  Prepared Statement of Philo L. Dibble, Acting Assistant Secretary, 
  Bureau of International Organization Affairs, Department of State, 
                             Washington, DC

    Mr. Chairman, Senators, I welcome the interest of the Congress and 
the opportunity to appear before you to discuss our efforts to 
strengthen U.N. peacekeeping and put an end to the outrage of sexual 
exploitation and abuse by certain members of U.N. missions. In May, I 
testified before the House International Relations Subcommittee on 
Africa, Global Human Rights and International Operations on this most 
serious matter.
    During the past year, the establishment of U.N. peacekeeping 
missions to address failed states in Liberia and Haiti, two countries 
where the United States and the international community had previously 
intervened to restore order, illustrated the need for broader-based, 
longer-term approaches to post-conflict reconstruction and recovery. At 
the same time, the recent rapid growth in the demand for U.N. 
peacekeeping missions, especially in Africa, has made right-sizing and 
clear-exit strategies for U.N. peacekeeping missions more crucial than 
ever. Also during the past year, widespread and serious sexual abuse 
and exploitation by U.N. peacekeepers of civilian populations on post-
conflict societies came to light, making clear the need for stronger 
oversight, investigative and disciplinary procedures, and training to 
prevent such abuse.

                        PEACEBUILDING COMMISSION
    In order to prevent the recurrence of instability and conflict, the 
United Nations has increasingly focused on designing 
``multidimensional'' or ``integrated'' peacekeeping missions. In 
essence, such designs include both security activities, funded under 
the U.N.-assessed peacekeeping budget, and reconstruction and recovery 
programs funded under voluntary contributions by member states and 
regional organizations. The need for improved coordination between 
assessed ``peacekeeping'' activities and voluntary ``peacebuilding'' 
activities has become increasingly apparent.
    To address this problem, the United States supports the creation of 
a Peacebuilding Commission to improve coordination of the U.N. system 
and the donor community on policy and country-specific operations in 
the transition from conflict to post-conflict peacebuilding. We believe 
all contributions for peacebuilding activities should be voluntary 
rather than assessed.

                 RIGHT-SIZING OF PEACEKEEPING MISSIONS
    Through our participation in Security Council consideration of 
mandate authorizations for peacekeeping missions, we keep those 
mandates and the force levels under constant scrutiny. We have led 
efforts in the Security Council in recent months to ensure timely 
termination of peacekeeping missions where exit strategies have been 
fulfilled, and to scrutinize the staffing levels of longstanding 
peacekeeping missions. In May, the Council approved the termination of 
the peacekeeping mission in East Timor, and in June approved the 
termination in December of the mission in Sierra Leone. Last year, the 
Council approved significant reductions in troop levels in Cyprus, 
where accession to the European Union reduced the potential for renewed 
conflict, and in Ethiopia/Eritrea, where a political stalemate made the 
implementation of the U.N. mission's border demarcation mandate 
impossible. At the urging of the United States, the Council requested 
that the Secretary General review the level of staffing in MINURSO, the 
mission in the Western Sahara, where political stalemate has prevented 
any progress toward a final status referendum since the creation of the 
mission.
    In considering requests for force increases, we have carefully 
weighed the justification for such requests against the costs. In June, 
the Security Council approved a U.S. proposal to authorize the 
temporary transfer of peacekeeping troops among three neighboring 
missions in West Africa to respond to requirements for a surge capacity 
when needed. This new authority is intended to afford the Secretary 
General an opportunity to take into account overall force levels on a 
regional basis and deploy peacekeeping capacity more efficiently.

                     SEXUAL EXPLOITATION AND ABUSE
    In 2004, in response to media reports of cases of sexual abuse by 
U.N. peacekeepers in the Democratic Republic of the Congo (DRC), our 
mission to the United Nations pressed the Department of Peacekeeping 
Operations (DPKO) to investigate these allegations and report to member 
states. To address the issue, the DPKO created an ad hoc ``rapid 
response'' investigation team and a task force at the headquarters of 
the U.N. mission in the DRC (MONUC) in Kinshasa. This was the start of 
a process that has since brought to light shocking and abhorrent sexual 
exploitation practices on a significant and widespread scale in MONUC 
by both civilian and military members of the peacekeeping mission.
    In the eastern DRC, the sexual exploitation and abuse of women, 
especially young girls, by armed militia was a horrific part of the 
civil war that raged in that region prior to MONUC's arrival. Many 
girls were raped and some were pregnant and without families or 
financial means of support due to the stigma attached to rape. The 
subsequent involvement of some U.N. peacekeepers in sexual exploitation 
of some of these same victims aggravated a very sad situation.
    These cases highlight the dangers young people face in post-
conflict situations. When impoverished young village children are 
displaced, separated from family and friends, homeless, or unable to 
provide for basic necessities they become all the more vulnerable to 
force, fraud, coercion, exploitation, and abuse. Illiteracy, food 
insecurity, and unemployment add to the vulnerability of these 
civilians to sexual exploitation. There is a special evil in the sexual 
exploitation and abuse of children, who are the most innocent victims. 
President George W. Bush said, ``Those who created these victims . . . 
must be severely punished.''
    Mr. Chairman, MONUC has contributed greatly to stability and to 
democratic transition following a civil war that produced millions of 
civilian casualties. With that context in mind, it is doubly abhorrent 
that those the United Nations entrusted to protect civilians have 
committed appalling human rights violations and abuse there, with 
serious social, health, and security consequences. Since September 
2003, U.N. peacekeeping missions, with combined troop levels 
approaching 35,000, have been created in Liberia, Burundi, Haiti, Cote 
d'Ivoire and Sudan. We have seen that vulnerability for abuse exists in 
these areas of conflict.

                  U.N. REACTION AND FOLLOWUP MEASURES
    U.N. officials at the highest level have repeatedly condemned this 
intolerable conduct by peacekeepers and have taken responsibility to 
ensure accountability and effective prevention in the future. The 
Secretary General has expressed shame and outrage. Last February 9, he 
wrote to the Security Council that ``the unconscionable conduct of 
those peacekeepers who are culpable now clouds a distinguished record 
of collective achievement and individual sacrifice.'' Jan Egeland, the 
Under Secretary General for Humanitarian Affairs said, ``What we have 
seen in the Congo and elsewhere should never have happened. If we, as 
peacekeepers and aid workers, abuse the civilian population, then we 
have really failed to protect and help.'' As Under Secretary General 
Egeland mentioned, these allegations are not unique to the DRC. Other 
allegations involved U.N. peacekeepers in Burundi, Liberia, and Haiti. 
In the past, other U.N. agencies have been the locus of allegations in 
Kosovo and Sierra Leone. Some cases date back to 2001, where U.N. 
peacekeepers in Bosnia were involved in sex trafficking rings.
    The Secretary General dispatched a special investigative team to 
the DRC in November from U.N. headquarters headed by Assistant 
Secretary General Angela Kane. Last month, she briefed the Security 
Council Working Group on Peacekeeping Operations about her mission to 
investigate the serious cases of sexual exploitation by both military 
and civilian peacekeepers. As part of the U.N.'s followup, Deputy 
Secretary General, Louise Frechette, visited major U.N. peacekeeping 
missions within the last few months to underscore the U.N. zero-
tolerance policy for sexual exploitation and abuse and to stress 
enforcement of the U.N. Code of Conduct. Several troop-contributing 
countries have reported on action taken against their military members. 
Virtually all U.N. peacekeeping missions now undertake some form of 
beefing or training on sexual exploitation and abuse.
    Mr. Chairman, the United Nations has begun responding to pressure 
from the United States, Japan, and other concerned member states. The 
U.N. Office of Internal Oversight Services (OIOS) sent a team last 
summer to investigate these deeply disturbing cases in the DRC, and the 
OIOS has made recommendations to alleviate the problem. MONUC has 
implemented strict nonfraternization regulations, off-limits areas, and 
curfew for its military contingent. A Code of Conduct and Behavior has 
long existed and is now the subject of special training sessions for 
all U.N. peacekeepers. MONUC has also reached out to women 
parliamentarians in the DRC, and conducted interviews with the media 
and launched an awareness campaign, particularly with regard to victim 
assistance and paternity claims.
    I want to acknowledge that we are particularly grateful for the 
work of the Secretary General's special adviser, Prince Zeid Ra'ad Al-
Hussein. For the past year, he has worked with troop-contributing 
countries to develop a comprehensive strategy with recommendations for 
more effective action to ensure accountability for breaches of the U.N. 
Code of Conduct and actual compliance in the field. On June 22, the 
General Assembly adopted resolutions enabling the United Nations to 
implement many of the recommendations contained in Prince Zeid's 
comprehensive strategy.
    From December 2004 to May 2005, the United Nations has completed 
investigations into allegations of sexual exploitation and abuse 
involving 186 peacekeeping personnel. These investigations have 
resulted in the repatriation on disciplinary grounds of 78 military 
personnel, including 6 commanders, as well as 2 civilian police from 
formed police units. So far, seven U.N. civilian staff members have 
been summarily dismissed. Others have disciplinary processes pending. A 
centralized database of misconduct cases is designed to prevent those 
who have committed abuse from serving with the United Nations in any 
capacity in the future.
    The U.N. Office of Internal Oversight Services has taken the lead 
to develop its capacity to investigate independently these allegations 
of sexual exploitation and abuse in U.N. missions. In response to 
recommendations of the U.N. Special Committee on Peacekeeping, the 
Secretary General has requested funding for new OIOS investigative 
posts at the U.N. missions in Haiti, DRC, Burundi, Liberia, Cote 
d'Ivoire, and Sudan. He also requested new posts for the conduct and 
discipline units at the same U.N. missions as well as in Sierra Leone. 
He has proposed revision to the OIOS mandate to ensure compliance with 
recommendations for a permanent, professional, and independent 
investigative function that the General Assembly endorsed.
    Looking beyond the U.N.'s current efforts to respond to the 
situation, U.N. DPKO prepared draft recommendations on longer term 
changes in U.N. rules and procedures needed to equip the U.N. system 
with the legal tools to ensure accountability and compliance with the 
Code of Conduct in the future. Greater inclusion of women in U.N. 
peacekeeping is intended to promote an environment that is less 
conducive to exploitation and abuse.
    Some troop-contributing countries have also publicly acknowledged 
the problem and taken corrective action. It is a positive sign that 
Morocco removed two unit commanders in its contingent in Congo and 
announced the prosecution of six military members of MONUC who were 
repatriated at MONUC's request after allegations of sexual abuse were 
substantiated. France has opened judicial proceedings against a 
civilian staffer of MONUC, accused of running a pedophile ring. The 
U.N. Department of Peacekeeping Operations distributed to all its 
missions in June, mandatory training programs for all peacekeeping 
personnel to make clear that the Code of Personal Conduct for Blue 
Helmets, the observance of international humanitarian law, and the U.N. 
zero-tolerance policy for exploitation and abuse will be enforced in 
practice. This is particularly important in newer U.N. peacekeeping 
missions. The United Nations is developing a model memorandum of 
understanding for troop-contributing countries that will address many 
of these issues. This draft model MOU is to be presented to the U.N. 
General Assembly Special Committee on Peacekeeping Operations for 
approval in 2006.

                              U.S. ACTIONS
    Mr. Chairman, we have raised the problem of sexual exploitation 
with senior U.N. officials at U.N. missions abroad, in New York and 
Washington, and with civilian and military officials in the capitals of 
major troop-contributing countries. The Department, via diplomatic 
channels, urged all troop-contributing countries to take appropriate 
disciplinary action according to their military judicial procedures in 
cases of repatriation of military members as a result of sexual 
exploitation charges.
    The Department has reported to Congress on this problem, including 
in its most recent annual report on U.N. peacekeeping in June 2005. As 
part of the Department's broader efforts to combat trafficking in 
persons, the Department last year committed funding for the Department 
of Peacekeeping Operations to prepare antitrafficking materials to be 
used in training U.N. peacekeepers worldwide on the U.N. policy of zero 
tolerance for sexual exploitation and abuse.
    The United States has consistently and strongly supported the U.N. 
policy of zero tolerance of sexual abuse among peacekeepers, and 
insisted that it be implemented in practice. Then-Secretary Powell 
conveyed these concerns personally to Secretary General Kofi Annan. At 
the insistence of the United States, U.N. Security Council Resolution 
1592 of March 30, 2005, which renewed MONUC's mandate, also called on 
the Secretary General to ensure compliance with the U.N. zero-tolerance 
policy and to take appropriate action against perpetrators of abuse. 
Recent Security Council resolutions renewing the mandates of the U.N. 
missions in Cote d'Ivoire, Burundi, Cyprus, and Haiti had similar 
language. It is U.S. practice to include such language in all Security 
Council Resolutions related to peacekeeping. Former Secretary Powell, 
together with the Japanese Foreign Minister, wrote to the Secretary 
General early this year urging the United Nations to take action 
quickly to stop sexual exploitation and abuse by peacekeepers. On May 
31, the Security Council adopted a Presidential statement, proposed by 
the United States, condemning sexual exploitation and abuse by U.N. 
peacekeeping personnel. The statement underscored that U.N. managers 
and commanders have primary responsibility to create an environment in 
which misconduct is not tolerated.
    We strongly supported the proposal to increase the investigative 
capacity of OIOS as a critical step toward enhancing accountability and 
transparency. OIOS will clearly need more investigators to ensure 
enforcement of U.N. policy. OIOS may wish to recruit professional 
investigators for peacekeeping missions who have experience in work 
with military inspectors general offices.

                         MORE NEEDS TO BE DONE
    Mr. Chairman, more remains to be done. There appears to be 
disparities between formal U.N. policies and peacekeeper behavior. For 
example, violations of the Code of Conduct continued after the OIOS 
investigation in the DRC. Some military commanders did not cooperate 
with U.N. investigators.
    It is imperative that U.N. officials suspected of criminal activity 
or misconduct be investigated and that guilty individuals be punished. 
The Secretary General has the right, and the duty, to waive the 
immunity of any official in any case where, in his opinion, immunity 
would impede the course of justice. The United States wants to ensure 
that the Secretary General invokes this privilege whenever warranted. 
More importantly, military commanders of national contingents must be 
held accountable for actions by perpetrators under their supervision. 
If discipline is not enforced, the United Nations must repatriate 
commanders and recommend that their national commands take disciplinary 
action.
    Likewise, DPKO must insist that troop-contributing countries take 
appropriate disciplinary action when warranted. It is imperative that 
the results of troop-contributing-country actions against perpetrators 
of exploitation and abuse be reported to the United Nations 
transparently. We urge DPKO to continue working with troop-contributing 
countries and mission force commanders with their subordinates, to 
underscore the importance of enforcement and deterrence, and to bolster 
the highest standards of discipline and conduct fitting for all U.N. 
peacekeeping operations.
    Standards are necessary, but not sufficient to deal with the 
problem. In order to implement the existing standards, the United 
Nations must create a culture that rejects and penalizes such abhorrent 
behavior at every level, from the senior civilian and military 
leadership down to the level of the individual blue-hatted trooper.
    In our view, it is most important that this be achieved at the 
level of individual national units. If the carefully selected 
peacekeepers in a U.N. battalion understand clearly, both from their 
training and from the standards and behavior of their unit commander, 
that sexual abuse and exploitation will not be tolerated, and that such 
behavior will have an immediate negative impact on their own careers, 
then the risk of sexual abuse and exploitation by members of that unit 
will fall. The converse is true, and we note that unit commanders from 
certain other countries have been recalled, and some dismissed, for 
failure to meet this standard. Specifically, we have sought the 
following from the United Nations and from troop-contributing 
countries:

  <bullet> Individuals who would be in a position to commit abuse must 
        be made to know that sexual abuse and exploitation will be 
        swiftly investigated and swiftly dealt with, and this 
        information must also be reinforced by advance training.
  <bullet> The United Nations must require would-be troop-contributing 
        countries to commit, in writing, to provide U.N.-specific 
        training on sexual abuse and exploitation before their troops 
        deploy.
  <bullet> The United Nations must require would-be troop-contributing 
        countries to commit, in writing, to swiftly deal with 
        allegations of sexual abuse or exploitation by their own 
        national disciplinary and administrative means, and to report 
        to the United Nations the final disposition of each case.
  <bullet> The United Nations must require individual unit commanders 
        to be held accountable for the behavior of the troops under 
        their commands.
  <bullet> The United Nations must maintain a roster of persons who 
        have committed sexual abuse or exploitation while serving with 
        the United Nations. Those persons must be permanently barred 
        from service with the United Nations in any capacity.
  <bullet> We will ask the United Nations to provide regular updates on 
        the status of sexual exploitation and abuse cases.

    Mr. Chairman, the United States takes responsibilities, with 
respect to U.N. peacekeeping, very seriously. I assure you that we will 
continue to work with the United Nations and troop contributors to put 
in place measures aimed to end sexual exploitation and abuse by U.N. 
peacekeepers.
    Thank you, Mr. Chairman.

    Senator Sununu. Thank you very much.
    Could you begin by describing how the administration is 
evaluating, how the administration, how the United States, 
evaluates support for creating a U.N. peacekeeping operations? 
What criteria are used and evaluated in deciding whether or not 
to lend support in an operation? And, if appropriate, maybe you 
can speak to a couple of examples of past missions.
    Mr. Dibble. The fundamental question is whether there is a 
threat to international peace and security, and that could 
obviously stem from different kinds of situations. The most 
obvious one, and the traditional one, is where there is a 
conflict between states that threatens to go beyond the 
immediate neighborhood.
    The more difficult assessment and the one where we have had 
the most trouble, to be quite frank, is where the conflict is 
within a state. The most recent example is in Sudan, where 
questions of sovereignty, questions of foreign interference in 
internal affairs, have come into play in the debate within the 
Security Council and have delayed, quite frankly, responses 
that were adequate to the situation at hand. I am happy to say 
that we were successful in Sudan, up to a point, in 
establishing a peacekeeping operation to enforce the 
Comprehensive Peace Agreement in the south.
    We have also managed to address, though not quite as 
directly, the issue of Darfur by providing assistance outside 
the U.N. context to the African Union force, without ruling 
out, indefinitely, the possibility that that force, itself, 
could turn into a U.N. peacekeeping operation.
    Senator Sununu. As you review the work of the United 
Nations and the reform of the peacekeeping capacities, what do 
you see over the last 6 to 9 months as the most significant 
successes and positive developments?
    Mr. Dibble. I think the most important have been the 
responses of the international community to the crises that 
have emerged, mainly in Africa, the willingness on the part of 
the United Nations, its member states, and the troop 
contributors in particular, to undertake complex missions, the 
willingness to adjust rules of engagement to allow peacekeepers 
to act aggressively against threats, not only to themselves but 
also to the mission, broadly defined, and to civilian 
populations.
    That is particularly the case, as Jane Lute mentioned, in 
eastern Congo. We are looking for something more along those 
lines in Haiti.
    Senator Sununu. What do you see as the greatest current 
weaknesses? What are the greatest concerns within the U.S. 
State Department right now with regard to the process of 
reforming and improving peacekeeping operations?
    Mr. Dibble. Many of the weaknesses were identified in the 
Gingrich-Mitchell report, but the most important strategic 
weakness, I think, is that we have not yet come to a common 
understanding among member states about how to deal with the 
full range of issues that are in play in a complex peacekeeping 
operation and in post-conflict situations, generally. What we 
would like to see, obviously, is a peacekeeping operation 
established and then ended without the need, then to return in 
however many months or years because the followup has failed.
    That is the purpose of the peacebuilding commission as we 
see it, to complement the stability and security element of 
peacekeeping with a broader range of capabilities that exist, 
either within the U.N. system or among member states, that can 
be brought to bear to keep things--to move a country onto a 
stable path.
    Senator Sununu. One of the issues that came up in the 
presentations by the briefers is the issue of information 
gathering. This was raised by the Gingrich-Mitchell task force 
as well. They recommended that member states should generate 
resources required to ensure that all peacekeeping missions 
have information-gathering capacity to ensure operational 
success.
    How can the United States do this and to what extent should 
the United States share its intelligence and other information-
gathering capacity to ensure the success of peacekeeping 
operations?
    Mr. Dibble. I think there is no question that we share the 
view that troops in the field need an intelligence capacity, 
especially if they are deploying into areas where they are 
required not just to sit there and watch, but to act 
aggressively.
    It is a very difficult issue, I think, for us and it is one 
that--I have found in my career that intelligence agencies tend 
to be jealous of their information and sharing is very 
difficult, even within the U.S. Government. But there is 
clearly a need and we clearly need to find a way to help 
address it.
    Senator Sununu. Are there any specific avenues or specific 
approaches that you believe would be most effective or that the 
State Department is in a position to recommend?
    Mr. Dibble. We have not given it the degree of thought, 
given that most of the information is not ours to share. I 
think it is fair to say that, given the impetus behind U.N. 
reform, generally, that this, too, may be something that we 
need to consider as we go forward.
    Senator Sununu. Regarding the Gingrich-Mitchell task force, 
does the administration support increased funding to implement 
the various recommendations? We just spoke about one, in 
particular, regarding information-gathering. But what kind of 
funding mechanisms and what kind of commitments with regard to 
resources is the State Department prepared to endorse?
    Mr. Dibble. We keep very much in mind, our duty to the 
taxpayer and we encourage the United Nations, wherever 
possible, to fund new operations, new commitments, from within 
existing resources. We think that until there is significant 
management and budget reform within the United Nations, there 
is bound to be a certain amount of fat within the United 
Nations that could be moved to more productive uses.
    That said, we have already voted to approve the funding of 
the investigative positions within OIOS to undertake the 
investigations needed in connection with sexual exploitation 
and abuse and other misconduct. There are other instances, 
where the need is compelling and the ability is clear, where we 
would support increased funding, for example, just not 
particularly directly connected with peacekeeping, but the 
Office of the High Commissioner for Human Rights, for example.
    Senator Sununu. Well, I want to thank you and again thank 
our briefers. As I said before, I think I would like to follow 
up with some additional questions perhaps in writing, in 
particular with perhaps a request to expand a little bit on 
what opportunities there might be to improve information-
gathering and information-sharing in the field. Your point 
about the difficulties of sharing information even within our 
own Government is a challenge. It is a challenge for 
policymakers and legislators and those that work within the 
bureaucracy. But I think it is something that we need to pursue 
and address.
    Mr. Dibble. I agree.
    Senator Sununu. Because more and more, given the nature of 
the mission, given our interest in redefining and improving 
this role as peacebuilding, having good information, real-time 
information, not just intelligence but just good real-time 
information as to the state of affairs in a particular region, 
is absolutely critical. So I think that is something that the 
subcommittee is very interested in pursuing.
    Thank you very much for your time and your testimony. With 
that, the subcommittee is adjourned.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]

       An Additional Question and Answer Submitted for the Record


Response of Acting Assistant Secretary Dibble to Question From Senator 
                                 Sununu

    Question. What steps is the administration prepared to take to 
provide U.N. peacekeeping operations with the real-time information 
that the Gingrich-Mitchell report called for and which the United 
Nations has requested?

    Answer. Legal requirements to protect intelligence sources and 
methods restrict our ability to share U.S. intelligence gathered 
through such sources and methods with the United Nations. However, we 
have supported the U.N.'s creation of Joint Mission Analysis Cells and 
Joint Operations Cells in U.N. peacekeeping operations to gather and 
analyze information on U.N. peacekeeping missions and to provide 
relevant information and analysis to mission leadership, including to 
military commanders in support of current operations. For example, such 
cells are now operating in U.N. peacekeeping missions in Haiti and the 
Democratic Republic of the Congo.
    In addition, we have also supported, as part of our facilitation of 
the Uganda-Rwanda-Congo Tripartite Commission, establishment of a joint 
fusion cell to pool information on regional security threats among 
those three countries and MONUC, the U.N. Mission in the Congo.

                                  <all>
</pre></body></html>
